                   Testimony of the Honorable Todd J. Zinser 


                                     Inspector General 

                               U.S. Department of Commerce 


                 before the House Energy and Commerce Committee 


             Subcommittee on Communications and Technology 


                                         May 16, 2012 


                         Broadband Loans and Grants 


Chairman Walden, Ranking Member Eshoo, and Members of the Subcommittee:


I appreciate the opportunity to testify today about our oversight of the Broadband Technology

Opportunities Program (BTOP), as well as the challenges the National Telecommunications and

Information Administration (NTIA) faces in overseeing a large and diverse BTOP award

portfolio.


The American Recovery and Reinvestment Act of 2009 (Recovery Act) provided NTIA

approximately $4.7 billion to establish BTOP. This competitive grant program provides funds

for deploying broadband infrastructure in unserved and underserved areas of the United States,

enhancing broadband capacity at public computer centers, improving access to broadband

services for public safety agencies, and promoting sustainable broadband adoption. BTOP

awards were made in three major areas:

   	 program infrastructure (comprehensive community infrastructure, or CCI), to provide

       institutions such as schools, libraries, and medical facilities with internet connectivity,

       including seven grant awards, totaling approximately $382 million, targeting 700

       megahertz (MHz) interoperable public safety wireless networks;
      public computer centers (PCCs), to establish new public computer facilities or upgrade

       existing ones to provide broadband access to the general public or specific populations

       such as low-income individuals, the unemployed, seniors, children, minorities, and

       people with disabilities; and

      sustainable broadband adoption (SBA), to foster broadband Internet usage and adoption,

       including among specific populations traditionally underserved by this technology.

Table 1 provides a summary of BTOP funding:


                                    Table 1. BTOP Funding
                                                                        Actual
                Category
                                                                     (in millions)
                CCI                                                     $3,358
                State Broadband Initiative Program                         312
                SBA                                                        250
                PCC                                                        199
                Rescission                                                 302
                Othera                                                     147
                Cancelled, modified, or terminated awards                  127
                                                    Total               $4,695
              Source: OIG, based on NTIA data
              a
                includes transfer to OIG, transfer to Federal Communications Commission, and NTIA
              administrative expenses (figures have been rounded)

At the conclusion of the BTOP award process on September 30, 2010, NTIA had awarded 233

grants. As of April 30, 2012, the total number of BTOP grants decreased from 233 to 228 due

to grant cancellations, modifications, and terminations, which resulted in approximately $127

million returned to the U.S. Department of the Treasury (see table 2).




                                                   2

                                     Table 2. BTOP Grants
                                Number             Grant             Portion of
             Project
                                   of             Totals           Federal Funds
             Type
                                Grants         (in millions)         Awarded
             CCI                  120              $3,358               88.2%
             PCC                    65                199                5.2%
             SBA                    43                250                6.6%
                     Total        228             $3,807              100.0%
             Source: OIG, based on NTIA data

The Recovery Act also established a central role for Offices of Inspector General in monitoring

their agencies’ use of funds to prevent fraud, waste, and abuse. To date, our oversight efforts

have assessed the establishment, implementation, and program operations of BTOP: this

includes 6 reports and 29 recommendations developed to improve the administration of BTOP

and monitoring of approximately $4 billion in grant awards. Additionally we have provided

training and established a formal complaint intake and analysis process. We currently have three

open BTOP audit engagements, including an audit of BTOP grantees’ matching share, NTIA’s

management and oversight of its contract for BTOP administration, and BTOP subrecipient

monitoring. (Please see appendix for further details.) These, along with our Department-wide

Recovery Act review of lessons learned, comprise our most immediate efforts to anticipate and

address NTIA’s ongoing challenges in administering the program.


Given the complex BTOP grant award profile, there are a number of challenges that now

confront BTOP. My testimony will address these challenges, which include:

   1.	 Slow awardee spending could result in unfinished grant projects;

   2.	 NTIA Is addressing program office monitoring issues but additional monitoring of 


       equipment procurement may be needed; 


   3.	 Issues with awardee grant match documentation require closer NTIA oversight;


                                                3

                          4. NTIA needs to assess the impact that the recently established First Responder Network

                              Authority (FirstNet) program may have on existing BTOP public safety projects; and

                          5.	 Funding questions about 2013 and beyond raise concerns over continued BTOP 


                              oversight. 



1. Slow Awardee Spending Could Result in Unfinished Grant Projects


In my November 2011 testimony to the House Subcommittee on Investigations and Oversight

(Committee on Science, Space, and Technology), I reported that slow Recovery Act spending

posed a challenge. Although overall BTOP disbursement increased from 20 percent (September

30, 2011) to 42 percent as of April 30, 2012, spending—particularly with infrastructure

projects—continues to lag. Figure 1 below provides a summary of BTOP disbursements

through April 30, 2012.


                                  Figure 1. BTOP Disbursements by Project Type (as of April 30, 2012)

                          4,000                                                                 70%
                                       $3,358
                          3,500                                                                 60%
                                                                                          59%
                          3,000                                   56%
 Dollars  (in millions)




                                                                                                50%
                          2,500
                                                   40%                                          40%    Grant Amount
                          2,000
                                                                                                30%    Disbursements
                                                $1,342
                          1,500
                                                                                                       Portion Disbursed
                                                                                                20%
                          1,000

                           500                                                                  10%
                                                         $199 $111           $250     $148
                             0                                                                  0%
                                             CCI            PCC                     SBA


Source: U.S. Department of the Treasury, Automated Standard Application for Payment




                                                                        4

The July 2009 and January 2010 notice of funds availability (NOFA) required that all BTOP

projects be fully completed within 3 years of the grant issuance and all BTOP grants be awarded

by September 30, 2010. Since the first BTOP grants were awarded in December 2009, the

forecasted completion dates range from November 2012 to September 2013. Also subsequent

to December 2009, the Office of Management and Budget (OMB) has issued memorandum

OMB M-11-34, stating that federal agencies “should work collaboratively and transparently with

recipients of discretionary Recovery Act grants to accelerate the spending rate for all awarded

funds while still achieving core programmatic objectives.” In this September 15, 2011,

memorandum, OMB directs federal agencies to “establish aggressive targets, consistent with

programmatic objectives, for outlaying remaining funds. . . . [and] take steps to complete

Recovery Act projects by September 30, 2013.” While it aims to “accelerate the spending rate

for all awarded funds while still achieving core programmatic objectives,” OMB’s directive does

allow for deadline extension waivers where complex environmental review, the long-term

nature of programs, or other special circumstances or contractual commitments prevent

adjusting the timeline for spending.


Table 3 below provides additional details on projects with spending levels at 40 percent or less.

With approximately 18 months or about one-half of the 3-year grant life remaining, those

projects that have spent 40 percent or less of their grants present a higher risk of not meeting

their spending deadlines.




                                                5

                       Table 3. BTOP Grants with Spending Less Than
                        or Equal to 40 Percent (as of April 30, 2012)

                              Project   Number                 Portion of
                              Type        of                    Type’s
                                        Grants                Total Grants
                              CCI         49                      41%
                              PCC         13                      20%
                              SBA          8                      19%
                                  Total   70                      31%
                             Source: U.S. Department of the Treasury,
                             Automated Standard Application for Payment

Spending delays result from multiple causes. For example, special award conditions included in

CCI awards require that an environmental assessment (EA) conclude prior to the start of

construction. In our November 2011 BTOP award monitoring audit report, we noted that 118

BTOP grants required an EA and, at September 30, 2011, 12 awards continued to have

outstanding EAs. Although all but one EA are now complete, the initial delay continues to affect

the progress of BTOP projects. Additionally, in its March 2012 Quarterly Program Status Report,1

BTOP reported to Congress that local permitting and agreements for predeployment activities

have caused implementation schedule delays for some grant awards, including public safety

awards.


2. NTIA Is Addressing Program Office Monitoring Issues but Additional Monitoring

of Equipment Procurement May Be Needed


NTIA has overcome significant challenges in setting up and administering the BTOP program

and continues to face challenges in overseeing such a diverse program. Given BTOP’s complex

grant portfolio and recipient profile, continual monitoring of the program and technological

challenges becomes essential to ensuring $3.8 billion in federal funds are safeguarded. In our
1
 National Telecommunications and Information Administration, March 2012. Broadband Technology Opportunities
Program (BTOP) Quarterly Program Status Report. Washington, DC: NTIA, 12.


                                                      6

November 2011 BTOP award monitoring report, we determined that NTIA had taken steps to

establish a comprehensive BTOP award oversight framework. However we also provided

recommendations for improving internal controls over monitoring activities, including that

NTIA:

   	 strengthen the federal program officers’ (FPOs’) monitoring efforts—by revising the FPO

        handbook to guide the performance of due diligence on seemingly inconsistent recipient

        information, as well as reinforcing the importance of following up on unresolved issues;

        streamlining site visits to provide additional time for onsite inspection of project

        progress and verification of source documents; and conducting FPO training to ensure

        consistency in the use of monitoring tools and execution of monitoring activities;

   	 work with recipients at risk of not meeting award progress and completion requirements—by

        helping them develop action plans that aim for revised completion dates; and

   	 develop alternative strategies for those awards that will not be able to satisfy award terms—

        possibly including project extensions or rescopings.

Implementing recommendations such as these improves NTIA’s ability to ensure that operable

broadband systems are deployed nationwide with financial integrity and in the spirit of the

program’s intent. NTIA submitted a responsive action plan to our report and has already taken

a number of corrective actions.


As NTIA continues to implement our recommendations on program monitoring, we have

identified grantee equipment procurement and installation as areas for NTIA to monitor.

Approximately $3.4 billion in grants have been awarded to infrastructure projects, with 60

percent of spending remaining. With a large portion of those funds being spent on equipment


                                                  7

procurement and deployment, it becomes even more important to ensure that the equipment

works and meets the intended objectives of BTOP. Based on the BTOP NOFA, it is our

understanding that the equipment will meet the minimum technical requirements for broadband

data rates: at least 768 kilobits per second (kbps) downstream and at least 200 kbps upstream

to end users. OIG will continue to monitor equipment procurements and testing closely; our

FY 2012–13 audit plan identifies effective implementation of technology as an important area

for review.


3. Issues with Awardee Grant Match Documentation Require Closer NTIA

Oversight


In April 2011, we initiated an audit to determine whether NTIA has processes in place to

monitor BTOP recipient match and verify that match contributions meets federal administrative

requirements. Since then, we have completed our interviews and testing; identified

improvements needed to strengthen NTIA’s monitoring of BTOP grant match; and issued our

draft report. Our findings include: (1) PCC and SBA grantees do not receive the same detailed

match review as CCI projects; (2) grantees permitted a contractor and a subrecipient to access

cash drawdowns through the U.S. Department of the Treasury; (3) grantees did not record the

grant match in the financial records; and (4) some grantees were behind schedule in

contributing their nonfederal match.


NTIA’s review of all CCI infrastructure match budgets has identified and addressed many

potential match issues. However, its review of PCC and SBA match budgets is not as extensive

and does not include all relevant grants. Since PCC and SBA awards have lower award amounts




                                               8

that might not meet the grantees’ independent auditors’ testing thresholds, match issues may

not be identified in a timely manner if NTIA does not address them.


Additionally, BTOP grant recipients are required to contribute and expend nonfederal matching

share at the same general rate as they spend federal funds (i.e., proportionally). NTIA also

tracks federal and nonfederal spending quarterly. As of December 30, 2011, 49 grant recipients

had not met proportionality requirements (see figure 2). It is important that match funds are

contributed in proportion to drawdowns, to ensure that projects are appropriately funded

throughout their development and remain on schedule.


            Figure 2. Status of Match Spending (as of December 31, 2011)



                                    11

             Behind Schedule             19

                                         19
                                                                                SBA
                                                                                PCC

                                              32                                CCI

                 On Schedule                       46

                                                                    101



                               0     20       40        60   80   100     120

            Source: OIG, based on NTIA data

We also reviewed BTOP award recipients’ processes for drawing down federal funds and found

that 2 of the 25 recipients we reviewed allowed third parties (a contractor in one instance and

a subrecipient in the other) to draw down funds, which increases the risk of funds

misappropriation. Because of the increased risk, NTIA should ensure award recipients are



                                                   9

aware of the issue and are monitoring the drawdowns appropriately. Table 4 provides a

summary of the drawdowns that occurred.


     Table 4. Treasury Cash Drawdowns Made by Entities Other Than Grantee
                                       Total Drawdowns,               Number        Duration
       Project Type
                                   as of September 30, 2011              of             of
       (OIG tested)
                                          (in millions)              Drawdowns     Drawdowns
       Infrastructure Grantee 1                $7                        26         14 months
       Infrastructure Grantee 2                  2                       14         16 months
                         Total                 $9                        40            —
      Source: OIG analysis, based on NTIA and U.S. Department of the Treasury, 

      Automated Standard Application for Payment


4. NTIA Needs to Assess the Impact that the Recently Established First Responder

Network Authority (FirstNet) Program May Have on Existing BTOP Public Safety

Projects


The passage of new legislation requiring NTIA to establish an interoperable nationwide public

safety broadband network (PSBN) while continuing to oversee BTOP will place additional

requirements on NTIA, increasing program risk. As we track the establishment of FirstNet, its

impact on key BTOP public safety projects should be closely monitored.


On February 22, 2012, Congress enacted the Middle Class Tax Relief and Job Creation Act of

2012 (P.L. 112-96), reallocating the D-block spectrum and $7 billion in funding to NTIA for the

establishment of an interoperable nationwide PSBN. Specifically, the law requires NTIA to

establish an independent authority called the First Responder Network Authority (FirstNet) to

(a) administer the D-block and existing public safety spectrum and (b) oversee the

establishment and deployment of the PSBN.




                                                    10

Several BTOP projects involve networks similar to FirstNet’s PSBN; as a result, our BTOP

oversight helps us anticipate issues and concerns that could potentially arise with FirstNet. We

have been closely following the progress of BTOP’s seven existing public safety grant awards

(totaling $382 million), having already reviewed the BayWEB grant in a report issued May 2011

and a memorandum issued in January 2012. These seven large, complex infrastructure projects

have already faced multiple deployment challenges, resulting in slow awardee spending:

      the Adams County (Colorado) Communications Center, Inc. (ADCOM)

      the city of Charlotte, North Carolina (CharMeck Connect)

      the Executive Office of the State of Mississippi (MESHNet)

      the Los Angeles Regional Interoperable Communications System (LA-RICS)

      Motorola, Inc. (in the San Francisco Bay area)

      the New Jersey Department of Treasury

      the New Mexico Department of Information Technology)

Causes include delays in EAs, vendor selection, design modifications, and establishment of

governance structure. Figure 3 below depicts the federal fund amounts and the spending rates

as of April 11, 2012, for these projects; only one of the projects has spent more than 50

percent of its federal funds.




                                               11

      Figure 3. Disbursement (by Percent) of BTOP Public Safety Grant Funds

             60%

             50%

             40%

             30%

             20%

             10%

              0%
                     ADCOM MESHNet CharMeck  NM Dept  Motorola          LA‐RICS      NJ 
                                    Connect   of IT                               Treasury

            Source: U. S. Department of the Treasury, Automated Standard Application for Payment

If deemed compatible, FirstNet will integrate the progress achieved by the seven public safety

grantees into the PSBN (see table 5):


                       Table 5. Grants Likely to Transition to PSBN
                                                           Federal Funds
                            Recipient
                                                            (in millions)
                            ADCOM                                12
                            CharMeck Connect                     17
                            MESHNet                               70
                            LA-RICS                             155
                            Motorola, Inc.                       50
                            NJ Treasury                          39
                            NM Dept of IT                        39
                                                  Total        $382
                           Source: NTIA BTOP infrastructure project reports;
                           see http://www2.ntia.doc.gov/awards

Given the complexity and time requirements of PSBN, it will take FirstNet several more

months to establish technical guidance, as well as rules and regulations. NTIA has informed OIG

that it has asked all seven BTOP public safety projects to halt all long-term evolution (LTE)

deployment activities while it establishes program requirements to avoid any waste of federal



                                                   12

funds. All seven projects currently are at risk of not completing by September 30, 2013, unless

they transition to PSBN. As NTIA analyzes this issue, some potential areas of impact we

anticipate are:

   	 FCC spectrum waiver transfer to FirstNet. The public safety network grantees were

       required to obtain a waiver from the FCC to gain a license to operate on the 700 MHz

       spectrum. Existing spectrum waivers will need to transfer to FirstNet, which will hold

       one license for the whole public safety spectrum. The existing seven projects will need

       to re-apply for the waivers from FirstNet.

   	 LTE equipment purchases halted. In an effort to avoid waste of funds, NTIA has asked

       BTOP public safety awardees to halt any future equipment purchases in light of

       upcoming directives from FirstNet containing network-related guidance. Three of the

       seven grants (i.e., ADCOM, CharMeck Connect, and MESHNet) already have received

       LTE equipment.

   	 Grant deadline extensions. NTIA officials are seeking extensions from OMB on BTOP

       grant deadlines for the seven public safety awards so that halting LTE efforts will not

       jeopardize federal funding.

With so much significant spending on public safety equipment procurement and deployment, it

is imperative to ensure that the equipment works and meets the intended BTOP objectives.

OIG continues to oversee NTIA efforts to ensure it can monitor grantees’ equipment

procurements.




                                               13

5. Funding Questions About 2013 and Beyond Raise Concerns Over Continued

BTOP Oversight


Finally, Mr. Chairman, we would like to inform the Subcommittee that we have requested a

waiver under section 1306 of the Dodd–Frank Wall Street Reform and Consumer Protection

Act, which requires unobligated Recovery Act funds be returned to the U.S. Department of the

Treasury on December 31, 2012.


Recovery Act funds were transferred to OIG to fund oversight of BTOP. However, OIG has

managed its BTOP budget so that it will have funding necessary to pay for FY 2013–15 salaries

and expenses of auditors and investigators. These expenses cannot be obligated in advance.

Without a waiver, OIG will lose its dedicated funding for BTOP oversight up to 9 months

prior to the projected September 30, 2013, completion dates for the last BTOP projects, and

even longer before project closeout procedures are completed. Our future BTOP oversight

plan includes a combination of program audits and targeted audits of risky grants. In addition,

we are responsible for investigating and resolving complaints of wrongdoing made against BTOP

award recipients, for which we have established a formal complaint monitoring process.


On January 17, 2012, a request for a waiver for five Offices of Inspectors General was

submitted to the President by the Council of Inspectors General on Integrity and Efficiency.

While our communications with OMB have been positive, the request awaits OMB’s decision.

That it has not yet been approved by the President requires us to proceed with a degree of

uncertainty, which has a significant impact on OIG’s FY 2012 operations and FY 2013 planning.

Given the Subcommittee’s interest in oversight, we wanted to raise your awareness of this

issue.



                                                14

Additionally, while OIG is not in a position to speak to the Administration’s budget request for

NTIA oversight, that agency also faces challenges in funding the oversight of BTOP’s

responsibilities. As BTOP project completion dates for recipients approach, NTIA must

continue monitoring awards. Recent NTIA reports concerning those grants with two-thirds

completion deadlines of February 29, 2012, indicated that half had not met the deadline because

of slower spending. If this trend of project delays continues, NTIA may need to consider

granting no-cost extensions or cancelling projects; this underscores the importance of

continued oversight.


                                                •

In conclusion, Mr. Chairman, for FY 2012 and beyond, these complex grant implementation

issues present BTOP with many and unique challenges, particularly to NTIA’s administration

and oversight of this important program. The subcommittee’s continued attention and oversight

are important. For the Department to ensure effective implementation of BTOP, especially in

light of fulfilling OMB and legislative requirements, OIG and NTIA will require Congress to

continue your oversight efforts. This concludes my prepared statement, and I will be pleased to

respond to any questions you or other Subcommittee members may have.




                                               15

Appendix

OIG BTOP-Related Testimony, Reports and Memorandums, Works in Progress,

and Training


OIG’s BTOP oversight efforts began immediately after passage of the Recovery Act. Our

ongoing monitoring activities include: tracking grant recipient spending, reviewing quarterly

progress reports submitted by recipients, attending BTOP biweekly meetings to learn updates

on program status, attending quarterly meetings with contractors providing program services,

reviewing single audit and program-specific audit reports (as well as complaints), and responding

to BTOP program office questions. Further, our outreach efforts have resulted in 52 total

training sessions, reaching more than 3,100 program staff and grant recipients with more than

3,300 total training hours. For further detail, see table below:


                       Table A. OIG Oversight of BTOP (2009–Current)
Related Testimony
Title (Number)                               Date                       Congressional Audience
Stimulus Oversight: An Update                               Committee on Science, Space, and Technology
on Accountability, Transparency,       November 30, 2011    Subcommittee on Investigations and Oversight
and Performance (OIG-12-012-T)                              (U.S. House of Representatives)
                                                            Committee on Energy and Commerce
ARRA Broadband Spending
                                       February 10, 2011    Subcommittee on Communications and Technology
(OIG-11-019-T)
                                                            (U.S. House of Representatives)
Related Reports and Memorandums
Title (Number)                  Release Date                       Summary of Recommendations
                                                            NTIA should:
Misrepresentations Regarding                                  “[M]ake a determination whether the corrective
Project Readiness, Governance                                  actions underway by the grantee and political
Structure Put at Risk the Success of                           jurisdictions are sufficient to overcome the
                                        January 10, 2012       defects in the initial application”
the San Francisco Bay Area
Wireless Enhanced Broadband                                   “[With the Department,] gather lessons learned
(BayWEB) Project (OIG-12-016-M)                                from this award to employ on other BTOP and
                                                               future grant programs”




                                                      16

Related Reports and Memorandums (continued)
Title (Number)                  Release Date                      Summary of Recommendations
                                                           NTIA should:
                                                             Take prompt steps to strengthen federal
                                                              program officers’ monitoring efforts
                                                             Verify source documentation as part of its
                                                              monitoring efforts
                                                             Strengthen its monitoring tools’ internal control
NTIA Has an Established                                       capabilities
Foundation to Oversee BTOP
                                                             Improve guidance for recipient match
Awards, But Better Execution of     November 17, 2011
                                                              documentation during site visits
Monitoring Is Needed
(OIG-12-013-A)                                               Help recipients at risk of noncompliance with
                                                              award progress and completion requirements to
                                                              revise completion dates, request project
                                                              extensions, or rescope projects
                                                             Incorporate continuous trend analysis into its
                                                              award monitoring process
                                                             Identify oversight strategies for all funding levels
                                                           NTIA should:
                                                             Ensure independent review of complaints and
                                                              document responses and results
                                                             Develop policies and procedures for timely
                                                              response to complaints, including the
Review of BTOP Award for the                                  communication of issues with OIG
San Francisco Bay Area Wireless
                                       May 6, 2011           Emphasize for BTOP staff the importance of
Enhanced Broadband (BayWEB)
                                                              communication with the grants office when
Project (OIG-11-024-I)
                                                              responding to complaints
                                                             Ensure, when monitoring awards, that equipment
                                                              is valued at cost (consistent with cost principles)
                                                             Direct BTOP to promptly communicate potential
                                                              problems or deviations to the grants officer
                                                           NTIA should:
                                                             Manage the future lack of funding for BTOP by
Broadband Program Faces                                       developing alternative approaches to monitoring
Uncertain Funding, and NTIA Needs                             and oversight
                                    November 4, 2010
to Strengthen Its Post-Award                                 Ensure that agreements with other agencies,
Operations (OIG-11-005-A)                                     manuals and guidance, training and development,
                                                              and monitoring procedures are clearly
                                                              documented and fully adhered to




                                                     17

Related Reports and Memorandums (continued)
Title (Number)                           Release Date                  Summary of Recommendations
                                                                NTIA should:
                                                                  Create a staffing plan that outlines the necessary
                                                                   management resources and adjusts to key
                                                                   positions lost
                                                                  Develop and implement documentation policies
NTIA Must Continue to Improve its                                  and procedures
Program Management and Pre-                                       Have in-house counsel document arising program
                                          April 8, 2010
Award Process for its Broadband                                    issues and opinions from the Department’s
Grants Program: (ARR-19842-1)                                      Office of General Counsel
                                                                  Supplement reviewing staff to address
                                                                   unforeseen delays
                                                                  Develop procedures for monitoring recipients at
                                                                   risk of experiencing delays in completing post-
                                                                   award NEPA requirements
NTIA Should Apply Lessons                                       NTIA should:
Learned from Public Safety                                       Seek to extend program office funding to ensure
Interoperable Communications                                      proper oversight
Program to Ensure Sound
                                        March 31, 2009           Use joint peer reviews before making grant
Management and Timely Execution
                                                                  awards
of $4.7 Billion Broadband
Technology Opportunities Program                                 Complete a prompt environmental assessment of
(ARR-19583)                                                       BTOP
Related Works in Progress
Subject                                                         Summary of Objectives
                                      Determine whether NTIA has adequate processes in place to ensure that
NTIA’s Processes for Broadband
                                      BTOP grantees’ matching shares of approximately $1.4 billion meet both
Technology Opportunities Program
                                      administrative requirements and the terms and conditions of the individual
(BTOP) Grantees’ Matching Share
                                      awards
                                      Determine (1) how NTIA ensures the receipt and quality of the goods and
Management and Oversight of the
                                      services they pay for; (2) what specific controls exist to verify invoices and
Booz Allen Hamilton BTOP
                                      payment processes; and (3) how NTIA mitigates risks associated with time
Contract
                                      and material contract and task orders
                                      Assess whether all subrecipients have been identified and properly classified
BTOP Subrecipient Monitoring          and determine whether adequate controls are in place to ensure effective
                                      subrecipient monitoring and compliance with award terms and conditions
                                      As part of a federal government-wide Recovery Accountability and
                                      Transparency Board initiative, identify actions, mechanisms, and processes
                                      federal agencies used that were effective for implementing and
Recovery Act Lessons Learned
                                      administering Recovery Act programs—as well as those that were
                                      obstacles to successful Recovery Act programs (particularly relating to the
                                      overarching goals of transparency and accountability)
Selected Trainings
Subject                                  Date                                    Audience
BTOP                                October 6, 2011       Grant recipients (mixed local, state, nonprofit)
State Broadband Data Initiative      April 28, 2011       NTIA staff; awardees
Subrecipient Monitoring             February 3, 2011      NTIA staff; awardees
Fraud Prevention                        Various           NTIA staff; awardees




                                                          18

